Supreme Court, U.S.
FILED

WAIVER

DEC 1 6 2019
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

19-694
City of Trenton, Michigan, et al

Heather Baker, as Personal Representative of the Estate of Kyle Baker, Deceased
V.

(Respondent)

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
D Please enter my appearance as Counsel of Record for all respondents.
There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

I am a member of the Bar of the Supreme Court of the United States.
D I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by1),Bar memb r.
Signature
Date.

12/16/2019

(Type or print) Name

Courtney A. Jones
D Mr.

Firm

El Ms.

lI Mrs.

❑ Miss

ail
K as & Henk, PC
43902 Woodward Ave, Suite 200

Address

City & State
Phone

Bloomfield Hills, MI

248-335-5450 x 214

Zip
Email

48302

cjones@kallashenk.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Mark Bendure, Attorney

